HHS/OIG, Audit -"Review of New Jerseys System for Medicaid Provider Overpayments,"(A-02-04-01009)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of New Jerseys System for Medicaid Provider Overpayments," (A-02-04-01009)
January 23, 2006
Complete
Text of Report is available in PDF format (545 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine whether New Jerseys Department of Human Services reported
selected types of Medicaid provider overpayments in accordance with Federal requirements.  The
State agency did not report all overpayments in accordance with Federal requirements. The
State agency (1) delayed reporting overpayments until the date of its final decision or when
it collected the overpayment in full, (2) reported negotiated rather than gross overpayment
amounts, and (3) recognized overpayments as of the date of the final rather than draft audit
report.  The State agency also did not return the Federal share of overpayment interest
collected from providers.
We recommended that the State agency: (1) include unreported overpayments totaling $13,242,420
($12,279,902 not reported and $962,518 understated) on the CMS-64 and refund the $6,621,210
Federal share; (2) determine the value of unreported overpayments identified after our audit
period and report them; and (3) ensure that all overpayments are reported in accordance with
Federal requirements. The State generally disagreed with our findings.